                            Review of Document Imaging

                  Railroad Unemployment Insurance Act Programs

                        Report No. 01-01, November 17, 2000


This report represents the results of the Office of Inspector General’s (OIG) review of the
Railroad Retirement Board’s (RRB) document imaging initiative. This is the second report
of the OIG’s ongoing review of the imaging system. The prior review examined the
planning process for expanding document imaging to Railroad Retirement programs
(Audit Report No. 99-15, dated September 23, 1999). This report concentrates on
imaging initiatives in the RRB’s Unemployment and Sickness Insurance programs.

BACKGROUND

The RRB administers comprehensive retirement-survivor and unemployment-sickness
insurance benefit programs for railroad workers and their families under the Railroad
Retirement (RRA) and Railroad Unemployment Insurance (RUIA) Acts. During fiscal year
1999, the RRB paid $8.2 billion in railroad retirement and survivor benefits to 748,000
beneficiaries. The RRB also paid unemployment and sickness insurance benefits of $95
million to nearly 34,000 claimants.

The RRB is an information-intensive agency that stores and handles many paper
documents in claim folders. The Strategic Plan for 1997-2002 contains an objective to
“ensure that the technology infrastructure supports achievement of the agency’s Strategic
Plan.” One way in which the agency plans to accomplish this goal is to “take advantage of
existing and emerging technologies,” such as document imaging.

Document imaging is the scanning of paper documents to create easily accessible
electronic records instead of paper claim folders. The RRB’s Office of Programs scans
paper documents into a Local Area Network (LAN) to create an electronic image of the
document. Indexing information is then added to the document to facilitate later retrieval.
Examples of indexing information include the claimant’s social security number and name,
the type of document (e.g. sickness application or correspondence), and the scan date.
Some of this information is prefilled by the imaging system. After indexing, the document
is placed in a work queue based on agency workflow rules. If the document does not
require adjudicative action, a supervisor reviews the accuracy of the indexing fields as part
of the quality assurance review. A document requiring adjudicative action is sent to the
appropriate work queue based on the type of document. Examiners are responsible for
the quality of the image on cases that they adjudicate. After agency personnel complete all
required actions on the imaged document, the document is archived on a permanent
storage media known as an optical platter.

The potential benefits of a document imaging system include faster adjudication of claims
and improved control over work items. Examiners no longer have to wait for paper
documents. Also, multiple users can view a document at the same time. The workflow
features enable the agency to automatically route work, to set call-up dates, and to
establish security over the handling of items. The system can also provide management
with reports of pending work items and other useful information such as historical work
volumes and processing times.

The RRB has used document imaging to process sickness insurance applications and to
retain copies of tax statements since the early 1990s. During fiscal year 1998, the
agency’s Automated Data Processing Steering Committee approved capital expenditures
of approximately $400,000 for computer hardware and software to replace the existing
obsolete system with a modern system. The replacement RUIA system became
operational on June 14, 1999. The RRB expanded the RUIA document imaging system to
include correspondence and to allow limited access to other operational units within the
agency. The RRB considered the expansion complete in March 2000, and continues to
work on enhancements to the system including making the system available to its field
offices. The agency is also in the process of expanding the document imaging system to
include its retirement programs.

OBJECTIVE, SCOPE AND METHODOLOGY

The OIG’s objectives for this review were to determine if: the RRB is in compliance with

federal regulations on document retention; controls are in place to ensure reliability of the

imaged documents; and controls are in place to ensure security over access to the

documents. Our review of document retention and reliability of imaged documents was

limited to unemployment and sickness insurance documents scanned into the system

between July 1999 and May 2000. To accomplish the audit objectives, the OIG:


--reviewed applicable laws and regulations;

--reviewed industry guidelines on document imaging; 

--reviewed agency policies and procedures related to entering documents, accessing

documents, quality assurance, and backup and recovery;

--reviewed three judgmental samples of documents entered into the system between July

1999 and May 2000 (see the Appendix for details);

--interviewed personnel regarding policies and procedures and preliminary sample results;

and

--reviewed and tested access controls.


The OIG conducted the audit in accordance with generally accepted government auditing

standards. Auditors performed the fieldwork at the RRB headquarters office in Chicago,

Illinois from December 1999 through September 2000.


RESULTS OF REVIEW


The OIG did not find any violations of Federal regulations on document retention but

determined that inadequate procedures currently in use create the potential for illegal

destruction of paper documents. The RRB has not finalized procedures for storing and

destroying paper input documents.

The review also noted inadequate controls over the reliability of the imaged documents.
During the sample review of input documents, we found documents that were not on the
imaging system, had missing and/or unreadable pages, and had incorrect index
information (see the Appendix for complete results of our sample review). Missing
documents and incomplete records violate Federal law and regulations.

The RRB should improve the document imaging system’s access controls, management
reports, and backup and recovery procedures. A large number of employees have access
but are not currently authorized to use the system. Management reports are currently not
available. There is inadequate offsite storage of backup media, which could result in the
loss of all archived images if a disaster struck the headquarters operation. Finally, it will
be difficult to operate the document imaging system within the appropriate time in the
event of a disaster at its headquarters. The RRB’s Disaster Recovery Manual has not
been updated to include the imaging system.

Detailed findings and recommendations are discussed below.

Retention of Paper Documents

Misfiled Documents

Our sample review of input documents found that the Office of Programs staff improperly
filed some sickness applications and claim forms, documents scheduled for long-term
retention (6 years, 3 months), with documents marked for destruction after 60 days. In
addition, the OIG identified a few file folders containing documents with long-term retention
schedules that were filed with the 60-day retention folders.

All paper input documents are filed for either 60 days or 6 years and 3 months based on
type of document. The RRB’s Records Disposition Authority (SF 115), approved by the
National Archives and Records Administration (NARA), states that sickness applications
and claim forms should be destroyed 6 years and 3 months after the close of the benefit
year. Title 36 Code of Federal Regulations (CFR) Section1228.100 states, in part, that
“Records may not be removed from Federal Custody or destroyed without regard to
agency records schedules (SF 115) approved by NARA…” The agency head is required
to establish safeguards against the loss of records (Title 44 United States Code (U.S.C.)
Section 3105).

One reason that the Office of Programs misfiled documents is that the imaging procedures
do not clarify scanning, indexing and filing actions when a paper document includes
several related types of forms. For example, the procedures do not clearly state that an
application attached to correspondence should be scanned, indexed, and filed together as
an application. Also, there are no adequate internal controls to ensure that paper
documents are not destroyed before their required retention periods.

The RRB would be in violation of Federal regulations if it destroyed the sickness
applications and claims prior to their 6 year, 3 month retention schedule.

Recommendations:

The Office of Programs should:

--Revise the imaging procedures to clarify scanning, indexing and filing actions for
documents with several types of forms (Recommendation #1).

--Implement internal controls to ensure that paper documents are not destroyed before
their required retention periods (Recommendation #2).

Management’s Response

The Office of Programs concurs with these recommendations.

Incomplete Procedures

The Office of Programs has no written procedures for storing and destroying paper input
documents. In addition, the Bureau of Information Services’ (BIS) Division of Information
Management has not developed formal procedures to immediately notify the agency head
if a document (paper or electronic) is inadvertently or willfully destroyed in violation of the
agency’s approved record retention schedule.

The agency head is required to report any unlawful or accidental record destruction to
NARA (36 CFR Section1228.104). Criminal penalties can result if the law is willfully
violated (36 CFR Section 1228.102). The agency head is responsible for ensuring that all
employees are aware of provisions of law relating to the unauthorized destruction of
documents (36 CFR Section 1228.100).

The Office of Programs is still finalizing procedures on document retention. Without written
procedures, the RRB is at risk of violating Federal laws and regulations on document
retention.

Recommendations

The Office of Programs should immediately finalize internal procedures for storing and
destroying paper documents related to the RUIA imaging system and make the
procedures available to appropriate RRB personnel (Recommendation #3).

The BIS, with input from Office of Programs and other RRB organizations, should develop
procedures for the immediate notification of the agency head in the event agency records
are destroyed, either inadvertently or willfully, in violation of the agency’s approved record
retention schedule. Any unlawful document destruction should also be reported to the OIG
(Recommendation #4).
Management’s Response

The Office of Programs and BIS concur with these recommendations.

Reliability of the Imaging System

Missing Documents

The OIG could not find an imaged document for several paper input documents reviewed.
The documents were either never scanned into the system, or the documents were
indexed with the wrong social security number and name. In one case, a sickness
application was entered into the RRB’s computer system 129 days late due to a missing
image.

Federal statute charges the agency head with the duty to make and preserve records
necessary to protect the legal and financial rights of the government (44 U.S.C. Section
3101). Adequate records and management controls over the creation of agency records
are required to ensure that agency functions are adequately and properly documented.

The Office of Programs does not have sufficient input controls to ensure that all documents
are entered into the imaging system. The imaging system counts the number of
documents scanned in a batch, but there is no manual batch count to compare to the
system count.

Without the input controls, RRB personnel cannot rely upon the imaging system as a
complete record of the RRB’s transactions with its RUIA beneficiaries. Also, missing
images may cause delays in processing benefits.

Recommendation:

The Office of Programs should revise the scanning procedures to include a manual batch
count that is compared to the system count (Recommendation #5).

Management’s Response

The Office of Programs concurs with this recommendation.

Incomplete Records

The document on the imaging system is not always complete and legible. Almost 3% of
the documents in our sample were not completely legible, and over 8% of the documents
had missing pages (See Appendix). Examples of missing pages include: 1) two-sided
documents for which the reverse side was not on the imaging system; 2) entire sheets of
paper that were not on the system, and 3) date stamps that were missing from the system
because they were on the back with no other information.
Federal regulations (36 CFR Section 1222.50) require the preservation of complete
records. Because the RRB uses the imaging system as the record copy, the documents
on the imaging system must contain all the information on the input documents.

One reason for missing pages is that the Office of Programs management has not
instructed employees who are scanning the documents to always scan the back of a
document when it contains information. Furthermore, the employees have been instructed
not to scan the back if it only contains a date stamp.

In addition, the imaging system quality control features are not sufficient to ensure that all
records are complete and readable. The person indexing a document performs the initial
quality control review. The indexer is instructed to check each page of an imaged
document, but the indexer does not have a copy of the paper document when performing
this step. Without the paper document, the indexer cannot determine if a page of the
document is missing.

A second quality control feature is the quality assurance review of items not sent to an
examiner for adjudication. There are no written procedures for this quality assurance
review. This review is also performed without the paper document.

Missing information could lead to faulty adjudicative decisions. Records from the imaging
system cannot be used as evidence in a court of law because of reliability and
completeness deficiencies.

Recommendations:

The Office of Programs should:

--Revise the scanning procedures to include scanning of the back of a sheet of paper if
anything, other than preprinted instructions on RRB Forms, appears on the back
(Recommendation #6).

--Strengthen internal controls to ensure that all pages are scanned and legible
(Recommendation #7).

--Develop written procedures for the quality assurance review to include a comparison of
the paper document to the image (Recommendation #8).

Management’s Response

The Office of Programs concurs with recommendations #6 and #7. For recommendation
#8, the Office of Programs will develop written procedures for the quality assurance review
and will consider using the paper document to compare to the image in this review.

OIG Response
The OIG strongly believes that the quality assurance review should include a comparison of
the paper document to the image, given that about 8% of the OIG’s sampled documents
had missing pages. A quality review without the paper document generally would not
identify missing pages.

Indexing

The indexing information in the imaging system does not always match the input document.
 Our sample review identified numerous index errors, including several documents indexed
under the wrong social security number. Examples of other indexing errors included:
wrong form type, missing form type when the document contains more than one form type,
and wrong name or wrong railroad employer identification number. One sample case also
included a sickness application that was entered into the RRB’s computer system 20 days
late because it was indexed under the wrong social security number.

Federal Regulations (36 CFR Section1234.22 and Section 1222.50) require that, if an
agency keeps the official file copy of text documents on electronic media, the agency must
provide a method, such as an indexing or text search, for all authorized users to retrieve
desired documents. Since the RRB uses an imaged document as the record copy, and
the imaging system uses indexing fields to retrieve a document, the indexing fields must
be accurate.

There are no adequate procedures and controls to ensure the accuracy of the index
information. Indexers do not compare the image to the paper input document when
performing the initial quality control review. In addition, the imaging procedures do not
clarify scanning and indexing actions when a paper document includes several related
types of forms. For example, the procedures do not clearly state that a document
containing a sickness application and a Statement of Sickness should be separated for
scanning and indexing purposes because the application and the statement are sent to
different work queues.

Due to the inadequate procedures and controls, some images are difficult to find.
Indexing errors may cause delays in processing benefits.

Recommendations:

The Office of Programs should:

--Develop written procedures for the quality assurance review to include a verification of all
index fields (Recommendation #9).

--Revise the imaging procedures to clarify when a document with several types of forms
should be separated into two or more documents for scanning and indexing purposes
(Recommendation #10).
Management’s Response

The Office of Programs concurs with these recommendations.

Security and Control Environment

Access Controls

There is no formal procedure for controlling access to the RUIA document imaging system.
The Office of Programs had developed Form G-67 for requesting access to PC systems,
but BIS never implemented use of this form in its procedures.

This lack of a formal procedure resulted in BIS establishing access based on an Office of
Programs request to have imaging software installed on PCs for the future RRA document
imaging system.

The RRB’s Automated Data Processing Standards and Procedures require that access to
computer systems be limited to employees on a need-to-know basis. Additionally, access
is to be revoked when an employee leaves his/her position.

As a result, BIS has given RUIA document imaging system access to 111 employees who
do not require that access. In addition, one inactive employee who separated from the
RRB in July 1999 continues to have access to the system.

Because unauthorized access is possible, there is a security risk of the RUIA document
imaging system.

Recommendations:

--BIS and the Office of Programs formalize procedures to establish new users in the RUIA
document imaging system (Recommendation #11).

--BIS should remove the separated employee and the active employees who do not
require access to the RUIA document imaging system (Recommendation #12).

Management’s Response

Concerning recommendation #11, BIS and the Office of Programs advised that the login
procedures will be revised to eliminate the role of BIS in granting access to the imaging
system. The BIS and the Office of Programs concur with Recommendation #12.

OIG Response

The corrective action for Recommendation #11 is acceptable to the OIG.
Management Reports

The RUIA document imaging system is not currently producing management reports on
aging of cases, deleted images, social security number changes and cases returned to the
workflow queue. These reports assist management in controlling the document imaging
system and should have been available when the RUIA system became operational in
June 1999. For example, most documents are retrieved by social security number, which
makes it important for management to control the accuracy of and changes to the social
security number. The management reports are produced using several Structured Query
Language (SQL) tables in the document imaging system. The SQL tables contain data on
the image documents, such as scan date, examiner, and work completed.

Internal control standards issued by the Government Accounting Office state that relevant,
reliable and timely information should be recorded and communicated to management.
Management needs aging data to determine if cases are worked timely, and deletion data
to determine if images are being deleted without authorization. Some images are the
agency’s official record copy. The unauthorized deletion of an official record would violate
Federal laws and regulations.

The management reports are still under development because revisions to reports have
become necessary as the Office of Programs has made changes to the document
imaging system. Some SQL tables stopped functioning when the RRB revised the tables
and reports. In addition, design flaws in the SQL tables caused operational problems
when the RUIA document imaging system was converted from the obsolete system in
1999.

Without reports, agency management does not have sufficient information to monitor and
assess the RUIA document imaging system.

Recommendation:

The Office of Programs should complete their changes/development of the management
reports for the RUIA document imaging system (Recommendation #13).

Management’s Response

The Office of Programs concurs with this recommendation.

LAN Server Backup Procedures

Current backup procedures are not adequate for the LAN server containing RUIA
document imaging data. BIS sends LAN server backup tapes that are one week old to the
offsite storage facility, rather than the most current week’s tapes.

The fundamental reason for maintaining current backup copies offsite is to recover data
timely in case of a disaster at headquarters. BIS performs full backups of the LAN system
containing document imaging data approximately every seven days. Over a three-week
period, three generations of backup tapes are maintained. BIS rotates the LAN tapes so
that the first generation (current week’s tape) is retained onsite for a full week before being
sent offsite. The second generation (prior week’s tape) is kept offsite and the third
generation tape is returned to headquarters.

BIS sends the prior week’s LAN backup tapes for offsite storage because only one set of
backup tapes is made and BIS has decided to keep the current week’s tapes at RRB
headquarters for immediate recoveries should problems arise. In contrast, BIS generates
two sets of the current backup for the RRB’s mainframe operating system and database,
sending one copy for offsite storage and retaining one copy at headquarters.

BIS plans to eliminate the current procedure of individual LAN tape backups by having the
mainframe perform the backup of data from all LANs. The RRB has recently installed a
new, higher speed data communications connection between the mainframe and all LANs.
In addition, the agency has purchased a mainframe software product that will back up LAN
server contents to the mainframe storage using the data communication connection.
However, BIS has not prepared a project plan or determined a completion date for
installation of this LAN backup software.

There is a risk of losing as much as two weeks of LAN data should a disaster strike and
destroy the LAN server backup tapes kept onsite. The loss of LAN data could delay the
payment of RUIA benefits because imaged documents are stored on the LAN until the
RRB processes the document.

Recommendation:

BIS should complete installation of the mainframe software that will back up LAN server
contents (Recommendation #14).

Management’s Response

The BIS concurs with this recommendation.

Backup of the Optical Platter

The backup optical platter containing archived image documents rotates between
headquarters and the offsite storage facility approximately every two weeks (similar to
backup LAN server backup tapes), rather than being retained offsite for six years and
three months.

RRB Form G-1 is used to request offsite security storage of electronic media for business
resumption plans and to specify the retention period. After an RUIA optical platter backup
is full, the RRB’s Records Disposition Authority requires that the platter be retained for six
years and three months. Presently, one platter has been filled.

The backup optical platter is not properly retained offsite because the Office of Programs
did not use Form G-1 to request offsite storage and to specify the retention period of six
years and three months. All archived images on the optical platter backup could be lost in
a disaster because the platter is not properly stored offsite.

Recommendation:

The Office of Programs should request offsite storage of all optical platter backups and
specify the proper retention period using Form G-1 (Recommendation #15).

Management’s Response

The Office of Programs concurs with this recommendation.

Disaster Preparedness

The document imaging system is not included in the RRB’s Disaster Recovery Manual’s

Critical Applications Report. In addition, the Disaster Recovery Manual’s PC/Office

Hardware Acquisition List does not include all of the hardware necessary to run the

document imaging system. 


The RRB’s Disaster Recovery Manual states that critical applications essential to

operations are to be recovered within 72 hours after disaster declaration. Many of the

critical applications, such as the RUIA Daily Claims Processing system, are now

dependent upon the document imaging system. The Disaster Recovery Manual also

includes a detailed listing of all PC/office hardware acquisitions necessary to resume

business operations.


RRB management updated the Disaster Recovery Manual in September 1999 but failed to

include the document imaging system, which became operational in June 1999. Since the

document imaging system is not included in the RRB’s Disaster Recovery Manual, it could

be difficult for the agency to resume some critical operations within the appropriate time

(72 hours) should a disaster occur at headquarters. 

Recommendations:


--The Office of Programs should update the Disaster Recovery Manual’s Critical
Applications Report to include the document imaging system (Recommendation #16).

--The Office of Programs should update the Disaster Recovery Manual’s PC/Office
Hardware Acquisition List to include the appropriate hardware necessary to run the
document imaging system (Recommendation #17).

Management’s Response
The Office of Programs concurs with these recommendations. 



A COPY OF THE APPENDIX IS AVAILABLE UPON REQUEST.

